U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General



                PUBLIC
               RELEASE


                OFFICE OF THE
    CHIEF INFORMATION OFFICER

           Department Is Working to Improve
Accuracy of Reporting Y2K Compliance Status


            Inspection Report No. OSE-10924 / March 1999




                             Office of Systems Evaluation
March 31, 1999


MEMORANDUM FOR:               Roger W. Baker
                              Chief Information Officer


FROM:                         Johnnie Frazier
                              Acting Inspector General

SUBJECT:                      Final Inspection Report, Department Is Working to Improve
                              Accuracy of Reporting Y2K Compliance Status
                              (Report No. OSE-10924)


The Office of Inspector General is conducting a series of reviews of the Department of
Commerce’s Year 2000 (Y2K) Conversion Program. The purpose of this review was to
determine whether the number of compliant systems reported to the Office of Management and
Budget (OMB) accurately reflected the status of the Department’s Y2K Program. We made this
determination by assessing a small sample of systems reported to be compliant. We found that the
reported number of compliant systems does not accurately reflect the status of the Department’s
Y2K Program because the number is misleading, critical systems are not properly identified, and
evidence is lacking to validate compliance. We are concerned that the statistics on compliant
systems can give the impression that bureaus are making significant progress when the most
difficult Y2K conversions may still remain. We are aware, however, that as the Department’s
new Chief Information Officer (CIO), you have recognized these problems and instituted plans to
resolve them. Commerce bureaus are starting to respond both to your new plan and feedback
from our inspection.

Your response to our draft report indicates that you agree with our observations and the intent of
our recommendations. We summarize your response and follow-up discussions with your staff
after each recommendation. A copy of your full response is included as an attachment. We
appreciate the cooperation of the Department and the bureaus’ staff during this review. We look
forward to continue working cooperatively with the CIO and the bureaus to increase confidence
that Commerce’s operations will not be disrupted by Y2K problems.

BACKGROUND

Many of the Department’s computer systems use shorthand two-digit, rather than four-digit, years
that will cause inaccurate computations associated with the year 2000. Unless this Y2K problem
is fixed, there is serious risk that the Department’s business operations will be disrupted because
U.S. Department of Commerce                                                    Final Inspection Report OSE-10924
Office of Inspector General                                                                          March 1999

critical systems will not function properly. If the Department’s critical systems are not Y2K
compliant then services crucial to our country’s well-being, such as weather forecasting, the 2000
Decennial Census, economic reporting, export license enforcement, and intellectual property
protection, could be jeopardized.1 Exacerbating this situation is the fact that the Y2K problem is
so pervasive—it could be hiding in many computer programs, computer hardware, data
repositories, and external data sources—that weeding out every instance is a massive effort that
can strain even the best managed, financed, and technically staffed organization.

In May 1997, OMB issued a memorandum requiring government agencies to file quarterly reports
on their progress in making critical systems Y2K compliant. In November 1998, the Department
of Commerce reported that 80 percent (367 out of 458) of its critical systems were compliant.
The Department compiles quarterly reports from information provided by its constituent bureaus,
but until recently has not been verifying this information.

PURPOSE AND SCOPE

The purpose of this review was to determine whether the number of compliant systems reported
to OMB accurately reflected the status of the Department’s Y2K Conversion Program. We made
this determination by assessing the reliability of bureau information used to compile this statistic.

Our approach was to determine whether a sample of systems that were claimed to be Y2K
compliant in the Department’s quarterly OMB report actually were compliant.2 To make this
determination, we assessed the steps taken to renovate systems to make them compliant, i.e., how
Y2K software problems were identified, fixed, and tested. Assessment of the renovation process
cannot conclusively prove that a system determined to be compliant will be exempt from Y2K
failures. But it can increase confidence that the system will function properly and show that
bureaus were diligent in handling Y2K problems. A key element of our assessment was reviewing
test documentation, such as test plans, test cases, and test results.

We selected systems for review from the list of critical systems that corresponded to the
Department’s April 1998 “Quarterly Year 2000 Report” to OMB, the most up-to-date report at
the time our inspection started. We selected program, financial, and administrative systems that
were reported to be compliant and that appeared to be most critical to each bureau’s mission.
Then we worked with bureau Y2K coordinators to confirm or revise our selections. Later in the


         1
          A system is “Y2K compliant” if it can accurately process data associated with the century change. If it is
impractical to make a system compliant either by fixing Y2K errors or replacing the system, bureaus may utilize
manual workarounds or other alternatives to deliver, at least, a minimum acceptable level of service.

         2
          We did not assess other statistics in the quarterly report, such as the number of critical systems that have
been or will be repaired.

                                                          2
U.S. Department of Commerce                                        Final Inspection Report OSE-10924
Office of Inspector General                                                              March 1999

assessment, we also tried to limit our review to systems with significant Y2K problems (e.g.,
systems with many calculations using two-digit years), since they pose greater risk of failure.

We interviewed Department and bureau Y2K coordinators and bureau personnel directly involved
in making systems Y2K compliant. We assessed a total of 14 systems at 7 bureaus: Bureau of
Economic Analysis (3 systems), Bureau of Export Administration (1), Bureau of the Census (4),
Office of Administration (1), International Trade Administration (2), National Institute of
Standards and Technology (2), and Patent and Trademark Office (1). Specific systems are listed
in the Appendix.

We had planned to assess systems at each of the Department’s 12 bureaus but felt it more
important to report our initial observations as soon as possible. We did not assess some of the
most critical systems because it was already known that they were not yet compliant. Although
we assessed only a small sample of systems, we learned enough about the Department’s Y2K
Conversion Program to make the following observations and conclusions. We plan to continue
reviewing the Department’s critical systems for Y2K compliance in the near future.

This review was carried out jointly by the OIG’s Offices of Systems Evaluation and Audits. In a
previous review resulting in a memorandum issued to the Department in October 1997, the Office
of Audits concluded that the level of departmental concern and urgency of meeting deadlines
associated with Y2K was inadequate. Our work during this review was conducted in accordance
with the Standards for Inspections issued by the President’s Council on Integrity and Efficiency.

OBSERVATIONS

The Reported Number of Compliant Systems Does Not Accurately Reflect
the Status of the Department’s Y2K Program

The work effort remaining to make the Department’s critical systems compliant cannot be
confidently determined from the number of compliant systems reported to OMB for several
reasons: (1) the reported number of compliant systems is misleading, (2) critical systems were not
properly identified, and (3) evidence is lacking to validate compliance. However, the
Department’s new CIO has recognized these problems and has instituted more comprehensive
tracking of Y2K program progress and more stringent testing and validation requirements.
Bureaus are starting to react to both the CIO’s new plan and our review.

       The Reported Number of Compliant Systems Is Misleading

It is widely recognized by the General Accounting Office (GAO) and others that because the Y2K
program may be the largest and most complex system conversion effort undertaken by many
federal agencies, it requires a disciplined, coordinated approach. To manage such an effort

                                                 3
U.S. Department of Commerce                                                   Final Inspection Report OSE-10924
Office of Inspector General                                                                         March 1999

requires detailed and accurate program status information so that mangers can identify problems
and remedy them by redirecting scarce resources and adjusting the program strategy. However,
we found that the number of compliant systems reported in the Department’s quarterly Year 2000
progress report to OMB is misleading. A combination of factors biases this number: in some
cases, bureaus reported systems to be compliant that were not; in other cases, bureaus included
non-critical systems that were easily made compliant.

In summary, out of 14 systems assessed, we found only 3 that not only were critical to the
bureaus’ core business functions but also made significant use of year-specific data. Such systems
pose the highest risk and are the kinds of systems that Y2K programs should focus on first. Two
of the high risk systems had been renovated while the other was originally programmed to be
compliant. One of the two renovated systems was not compliant, and only one of the three had
test documentation supporting that it was compliant. The factors that bias the number of
compliant systems reported to OMB are discussed more fully below. The table summarizing our
assessment is in the Appendix.

Compliance inaccurately reported. Out of 14 systems assessed, we could not confirm that 3 of
the systems were compliant primarily because they were not thoroughly tested, particularly for
dates in the next century. However, the risk of operational failure was low for two of the non-
compliant systems (Census Bureau’s Administrative Record Processing and Basic Current
Population Survey systems) because they used year data infrequently. The third non-compliant
system (BXA’s Export Control Automated Support System) used year data extensively—75
percent of its program modules had been renovated. After we pointed out the need for more
testing of this system, bureau personnel informed us that more comprehensive testing would be
conducted.

Many compliant systems were not critical. Although we selected systems from a list of
systems that were supposed to be critical, 5 of the 14 (36 percent) reviewed were not critical.3
Three of the non-critical systems were from BEA and NIST, which are bureaus that chose to
include all their systems, both critical and non-critical, in their OMB reports. Reporting non-
critical systems to be compliant overstates the success of the Y2K program. It gives the
impression that bureaus are making significant progress, when the most important systems may
still require conversion.

Not all critical systems were listed. We determined that critical systems were missing from the
list of systems used to compile the Department’s OMB report. For example, at the Bureau of the
Census, some critical systems for the 2000 Decennial Census, such as the Pre-Appointment
Management System/Automated Decennial Administrative Management System and the Data


       3
           OMB states that agencies should address their “mission-critical” systems in quarterly reports.

                                                         4
U.S. Department of Commerce                                        Final Inspection Report OSE-10924
Office of Inspector General                                                              March 1999

Capture System 2000, were simply not listed. At NOAA, critical systems for two satellite
programs were listed as a single system rather than individually. Not listing all critical systems
downplays the number of systems requiring attention. (By the end of our review, the Census
Bureau had engaged a contractor to validate the compliance of decennial systems. Also, NOAA
was working on making its satellite systems Y2K compliant.)

Most systems required little effort to become compliant. Ten out of 11 compliant systems we
reviewed required little or no renovation to become compliant. They were either previously
programmed to be compliant or had little or no year data to read, manipulate, or display. In one
case, the entire renovation consisted of expanding a single year field on a printed report to four
digits. Because such a large percentage of systems we assessed were easy to make compliant, we
are concerned that the OMB requirement to simply report compliance versus non-compliance can
give the impression that bureaus are making significant progress when the most difficult Y2K
conversions may still remain.

       Critical Systems Are Not Properly Identified

Because correcting Y2K problems can strain resources and the deadline is immovable, care must
be taken to address the bureaus’ most important systems first. In its Y2K assessment guide, GAO
describes a five-phase structured approach for reducing Y2K program risks that includes
suggestions for identifying critical systems. In the assessment phase, GAO recommends that
agencies rank systems according to their impact on core business functions—that is, take into
account what would happen to core services and products if the systems failed. Analysis of core
business functions is not only useful for identifying the most critical systems to renovate or
replace, but also for contingency planning in case of unforeseen Y2K-induced failures.

We found that bureaus may not have adequately performed this criticality assessment and have
had difficulty identifying their critical systems. As stated previously, although OMB requires
agencies to report the status of critical systems, we found that 5 out of 14 systems were not
critical and that two bureaus (BEA and NIST) chose to include both critical and non-critical in
their reports. In one case, a system claimed to be critical had not been run since 1995.

Further evidence that critical systems were inadequately identified comes from the Department’s
August and November 1998 quarterly OMB compliance reports. For example, in the August
report NOAA added 5 systems to its critical list and removed 15 others. In the November report,
the total number of critical systems for the Department increased by three. According to GAO,
this assessment phase should have been completed by the end of August 1997 to allow enough
time to make systems compliant by the year 2000.




                                                 5
U.S. Department of Commerce                                       Final Inspection Report OSE-10924
Office of Inspector General                                                             March 1999

       Evidence Is Lacking to Validate Compliance

To determine whether systems reported to be compliant actually met compliance requirements,
we requested that bureaus provide us with test documentation—test plans, test cases, and test
results. However, very little documentation was provided to substantiate that systems were
compliant. For 8 of the 14 systems we assessed (including 5 of 11 compliant systems), very little
documentation was available to show that the systems were adequately tested.

Also, most bureaus did not have a process for confirming that systems were compliant. Instead,
most systems were simply designated compliant by the technical staff involved in making the
systems compliant. To increase confidence that systems are Y2K compliant and function
properly, they should be validated. Validation is the process of evaluating software to determine
its compliance with requirements. Usually an independent agent, such as an internal quality
control group or an independent verification and validation contractor, assesses the renovation
process (by inspecting code, reviewing test documentation, running tests, etc.) and reports its
findings to the manager whose business function depends on the system operating properly. If the
report is satisfactory, the business manager can attest to the system’s Y2K compliance.

       The Department Is Starting to Improve its Y2K Program

The new CIO has observations similar to ours about the Department’s Y2K Program. In an
October 6, 1998, memorandum to the Deputy Secretary, the CIO stated that the reported number
of compliant systems may be “too optimistic,” primarily because compliance has not been
independently validated and operating unit heads and business mangers have been left out of the
reporting chain. In response to these problems, the CIO (1) has required bureau heads to approve
Y2K Conversion Program status reports from information provided by their business management
chain, (2) has set deadlines for bureaus to present status briefings to the Departments’ Deputy
Secretary and Chief Financial Officer and Assistant Secretary for Administration, (3) has required
the submission of test plans and results for every system reported to be compliant, and (4) plans
to use an independent verification and validation contractor to help assess test documentation.
We believe the Department’s focus on holding bureau management accountable and monitoring
the progress of the most critical systems are sound management practices that will improve the
Department’s Y2K program.

CONCLUSION AND RECOMMENDATIONS

As indicated by the actions described, we believe that the Department is starting to address the
weaknesses identified in this report by emphasizing sound business management principles in its
Y2K Conversion Program and establishing a process for validating compliance. This effort
should increase confidence that bureaus’ most critical systems are selected for Y2K conversion,



                                                6
U.S. Department of Commerce                                        Final Inspection Report OSE-10924
Office of Inspector General                                                              March 1999

compliance is substantiated, and managers receive the status information they need to manage
their Y2K programs. To reinforce the CIO’s actions, we recommend that he ensure that:

1.     Bureaus are prioritizing their Y2K efforts by identifying and focusing resources on the
       most critical systems within core business functions that have the greatest risk of Y2K
       failures.

       Synopsis of CIO’s Response

       The CIO agrees with this recommendation. The CIO will ensure that bureaus are focusing
       on their most critical, high risk systems by first directing bureaus to identify these systems
       and then confirming that bureaus’ Y2K activities are focusing on them. Specifically, the
       CIO is directing bureaus to identify their most critical systems by resubmitting system
       inventories that include the system’s criticality ranking, complexity, extent of Y2K
       problems, and compliance status. As part of the CIO’s Y2K oversight responsibilities
       (reviewing monthly status reports, attending status briefings, etc.), he will confirm that
       bureaus are actually focusing their current and future Y2K activities (completing
       conversions, conducting independent validations and end-to-end tests, developing business
       continuity and contingency plans) on their most critical, high risk systems.

2.     Bureaus comply with the requirements to provide test documentation for compliant
       systems and have operating unit heads attest that systems are compliant.

       Synopsis of CIO’s Response

       The CIO agrees with the intent of this recommendation. Rather than request and review
       system test documentation from all the bureaus, the CIO will implement this
       recommendation by using a contractor to independently validate 40 of the Department’s
       most important systems and by directing bureaus to submit validation reports prepared by
       their independent validation agents for all their mission critical systems. As part of their
       system compliance assessments, these validation agents will review test documentation.
       The CIO is also directing bureau heads to sign their organization’s monthly Y2K status
       reports. This approach is responsive to our recommendation.

3.     For the quarterly OMB report, special efforts should be taken to ensure that:

       a.     all critical systems are listed,

       b.     non-critical systems are removed,

       c.     systems previously reported to be compliant are confirmed to be compliant, and

                                                 7
U.S. Department of Commerce                                      Final Inspection Report OSE-10924
Office of Inspector General                                                            March 1999

       d.     systems that become compliant are reported to be compliant only if they are
              validated.

       Synopsis of CIO’s Response

       The CIO agrees with the intent of this recommendation. Rather than change the
       methodology used to report to OMB, the CIO will implement this recommendation by
       using system inventories that are to be resubmitted by the bureaus (for Recommendation
       1) as the basis for maintaining an accurate accounting of compliant mission critical
       systems. To make sure that systems reported to be compliant are confirmed to be
       compliant, the CIO will also request that bureaus indicate whether the compliance of
       systems in the inventory have been independently validated and the method of validation.
       This approach is responsive to our recommendation.

4.     Progress of the most critical, high risk systems is monitored through frequent Department
       reviews.

       Synopsis of CIO’s Response

       The CIO agrees with this recommendation. Currently, the CIO receives a monthly report
       from each bureau for systems at risk, that is, those systems that will miss the March 31,
       1999 deadline for conversion. The CIO will direct bureau heads to brief him on their Y2K
       programs in May 1999 and he will report his conclusions to the Secretary.




                                               8
U.S. Department of Commerce                                                       Final Inspection Report OSE-10924
Office of Inspector General                                                                             March 1999

                                                         Appendix
                                   Office of Inspector General’s Assessment of
                                    Systems Reported to be Y2K Compliant

 Bureau and System               Mission          Use of Year   Renovated   Test          Adequately   Compliant
                                 Critical         Data                      Documents     Tested

 Bureau of Export Administration

 Export Control Automated        Yes              High          Yes         No            No           No
 Support System

 Bureau of Economic Analysis

 Budget Obligations and          No               Low           No (a)      Yes           Yes          Yes
 Tracking System

 National Stock Funds            No               I/O Only      Yes         Yes           Yes          Yes
 Processing System

 State and Local Government      Yes              Low           No (a)      Yes           Yes          Yes
 GDP Processing System

 Bureau of the Census

 Administrative Record           Yes              Low           No (a)      No            No           No
 Processing

 Industry and Occupational       No               None          No (b)      No            Yes          Yes
 Codes

 Basic Current Population        Yes              Low           Yes         No            No           No
 Survey

 Small Area Income and           No               None          No (b)      No            Yes          Yes
 Poverty Estimates

 National Institute of Standards and Technology

 Accounts Payable System         Yes              High          Yes         Yes           Yes          Yes


 Corporate Information System    No               I/O Only      Yes         Yes           Yes          Yes
 Financial Database System

 General Administration

 Time and Attendance System      Yes              I/O Only      Yes         Yes           Yes          Yes


 International Trade Administration

 Central Records Information     Yes              Low           No (a)      No            Yes          Yes
 Management System

 ITA Accounting System           Yes              Low           No (a)      No            Yes          Yes


 Patent and Trademark Office

 Revenue Accounting              Yes              High          No (a)      No            Yes          Yes
 Management System


                                * See Legend and Criteria on the following page *
U.S. Department of Commerce                                       Final Inspection Report OSE-10924
Office of Inspector General                                                             March 1999

                                Appendix (Continued)
                                   Legend and Criteria for
                        Office of Inspector General’s Assessment of
                         Systems Reported to be Y2K Compliant

Mission Critical

Yes =         System is part of a business process that is crucial to the bureau’s mission
No =          System is not part of a business process that is crucial to the bureau’s mission

Use of Year Data

I/O Only =    Input/Output only (no calculations, data entry/display only)
Low =         Few calculations
High =        Many system modules affected

Renovated

Yes =         System renovated specifically to become Y2K compliant
No =          System not renovated specifically to become Y2K compliant:
              (a)   Not renovated because system was programmed to be compliant by either
                    bureau staff or contractors
              (b)   Not renovated because system does not use year data

Test Documents

Yes =         Test cases and results available for review
No =          Test cases and results not available for review

Adequately Tested

Yes =         System tested for current and future dates; extent of testing commensurate with
              risk (i.e., criticality and extent of year data use)
No =          Systems not tested for current and future dates

Compliant

Yes =         Adequately tested or assumed to be compliant because contractor is required to
              deliver a Y2K compliant system (however, it may be advisable for the bureau to
              perform additional tests)
No =          Not adequately tested
